TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Oversight of Nonbank Trustees Has
                      Improved, but Resources Expended on
                       the Program Should Be Reevaluated



                                           May 11, 2012

                              Reference Number: 2012-10-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


OVERSIGHT OF NONBANK TRUSTEES                         trustee program by strengthening processes for
HAS IMPROVED, BUT RESOURCES                           approving nonbank trustee applications and
EXPENDED ON THE PROGAM SHOULD                         conducting investigations to ensure nonbank
BE REEVALUATED                                        trustees meet applicable tax regulations. Most
                                                      investigations determined that nonbank trustees
                                                      either were in full compliance with tax
Highlights                                            regulations or had minor violations that were
                                                      correctable.
Issued on May 11, 2012                                While the actions taken by the Employee Plans
                                                      function because of the Madoff scandal
Highlights of Reference Number: 2012-10-055           improved the IRS’s oversight of nonbank
to the Internal Revenue Service Acting                trustees, TIGTA determined that nonbank
Commissioner for the Tax Exempt and                   trustee investigations focus on compliance with
Government Entities Division.                         tax regulations and do not independently
                                                      determine whether the securities exist. As a
IMPACT ON TAXPAYERS                                   result, it is unlikely that nonbank trustee
A nonbank trustee is a financial entity that is not   investigations would uncover a scheme, such as
a bank or insurance company, but acts as the          the one perpetrated by Madoff.
custodian for tax-exempt retirement and savings       Because investigations have not uncovered
accounts. The Employee Plans function                 widespread noncompliance and would not likely
expanded its nonbank trustee program to ensure        uncover a Madoff-like scheme, Employee Plans
that nonbank trustees were meeting the                function management needs to evaluate how it
requirements outlined in the tax regulations.         can best balance limited resources between
However, with fewer than 100 nonbank trustees         efforts to oversee nonbank trustees and
and the IRS’s experience that most are                examining retirement plans.
complying with the regulations, TIGTA believes
the IRS should reevaluate the level of coverage       WHAT TIGTA RECOMMENDED
for this program and determine how it can best
balance limited resources with other programs.        TIGTA recommended that the Director,
If the Employee Plans function does not               Employee Plans, reevaluate the balance of
reevaluate its use of limited resources, it may       nonbank trustee program and regular
not know whether it is using taxpayer funds in        examination program work, and ensure that the
the most productive manner.                           published list of nonbank trustees is accurate.
                                                      In their response to the report, the IRS agreed
WHY TIGTA DID THE AUDIT
                                                      with the recommendations. The IRS plans to
This audit was initiated based on a                   evaluate the number of nonbank trustee
congressional inquiry and subsequent                  investigations to determine the proper balance
TIGTA investigation in the aftermath of the           between such investigations and regular
Bernard L. Madoff scandal and addresses the           retirement plan examinations. In addition, the
major management challenge of Tax                     IRS plans to continuously monitor the changes
Compliance Initiatives. The overall objective         to the list of approved nonbank trustees
was to determine whether the IRS is ensuring          throughout the year and annually publish an
nonbank trustees meet tax regulation                  announcement that contains the current list of
requirements and whether there are any                approved nonbank trustees.
opportunities for cost savings within this
program.
WHAT TIGTA FOUND
In the aftermath of the Madoff scandal, the
Employee Plans function expanded its nonbank
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 11, 2012


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Oversight of Nonbank Trustees Has Improved,
                             but Resources Expended on the Program Should Be Reevaluated
                             (Audit # 201110015)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is ensuring nonbank trustees meet tax regulation requirements and whether there are any
 opportunities for cost savings within this program. This audit is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2012 Annual Audit Plan and addresses
 the major management challenge of Tax Compliance Initiatives (Tax-Exempt Entities).
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                        Oversight of Nonbank Trustees Has Improved, but Resources
                             Expended on the Program Should Be Reevaluated




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Employee Plans Function Took Action to Better Ensure
          Nonbank Trustees Are Complying With Tax Regulations ........................... Page 4
          The Employee Plans Function Is Investigating a
          High Percentage of Nonbank Trustees ......................................................... Page 6
                    Recommendation 1:.......................................................... Page 8

          The Employee Plans Function Did Not Always Update the
          Approved Nonbank Trustees Master List ..................................................... Page 8
                    Recommendation 2:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
                     Oversight of Nonbank Trustees Has Improved, but Resources
                          Expended on the Program Should Be Reevaluated




                                             Background

A nonbank trustee is a financial entity that is not a bank or insurance company,1 but acts as the
custodian for the tax-exempt retirement and savings accounts shown in Figure 1.
       Figure 1: Retirement and Savings Accounts That Can Be Administered
                              by a Nonbank Trustee

      Tax-Exempt Retirement Accounts                                 Tax-Exempt Savings Accounts
Traditional Individual Retirement                           Health Savings Accounts
Arrangements
Roth Individual Retirement Arrangements                     Archer Medical Savings Accounts
Qualified Retirement Plans or Trusts                        Coverdell Education Savings Account
Deferred Compensation Plans of State and
Local Government and Tax Exempt
Organizations Custodial Accounts
Tax Sheltered Annuity Plans
Source: Internal Revenue Service (IRS) Internet site.

Taxpayers can make tax-deductible contributions to these retirement and savings accounts, as
long as the custodian of the accounts is a bank, insurance company, or an approved nonbank
trustee.
The Employee Plans function of the Tax Exempt and Government Entities Division is
responsible for ensuring that entities are qualified to operate as a nonbank trustee. Prospective
entities submit a written application to demonstrate that they meet the requirements outlined in
the Internal Revenue Code.2 However, these entities can accept funds for tax-exempt retirement
and savings accounts only after receiving written notice of approval from the IRS. The notice of
approval will remain in effect until revoked by the IRS or withdrawn by the applicant.
Revenue agents within the Employee Plans function’s examination program examine retirement
plans and investigate nonbank trustees. Retirement plans3 are examined to ensure that retirement
plan sponsors contribute to the plan as required, assets truly exist to satisfy liabilities and are


1
  Examples of nonbank trustees from the publically available list of approved nonbank trustees include
Charles Schwab and Co., Inc.; Goldman Sachs and Co.; and Merrill, Lynch, Pierce, Fenner and Smith, Inc.
2
  § 1.408-2(e)2 through (e)(5)(viii)(F).
3
  There are more than 867,000 retirement plans in existence with assets totaling approximately $5.3 trillion.
                                                                                                                Page 1
                       Oversight of Nonbank Trustees Has Improved, but Resources
                            Expended on the Program Should Be Reevaluated



properly classified, and retirement plans are operating in accordance with the plan design. If a
retirement plan is not in compliance, Employee Plans function examiners work with retirement
plan officials to resolve examination issues and bring the retirement plan back into compliance.
Nonbank trustee investigations4 are important because nonbank trustees do not file annual
information returns and the IRS needs to ensure that nonbank trustees continue to comply with
applicable tax regulations. These investigations include: 1) checking to ensure nonbank trustees
can account for distributing income between many individual accounts, 2) checking to ensure
nonbank trustees have had their financial statements audited by a Certified Public Accountant,
and 3) checking to ensure that nonbank trustee employees are insured on a bond of no less than
$250,000.
Based on the work the Employee Plans function conducts to evaluate written applications and
investigate nonbank trustees, the IRS publishes a list of entities approved to operate as nonbank
trustees on its Internet website. This list assists taxpayers who may wish to invest funds with a
nonbank trustee by providing assurance that the IRS has approved the trustee to accept funds for
tax-exempt retirement accounts and savings accounts. In addition, the nonbank trustee program
is important because the taxpaying public perceives that the IRS is being vigilant and is looking
at the integrity of the retirement system in order to keep the public’s trust.
This audit was initiated based on a congressional inquiry
and a subsequent Treasury Inspector General for Tax                       This audit was initiated based
Administration investigation in the aftermath of the                    on a congressional inquiry and a
Bernard L. Madoff (hereafter referred to as Madoff)                      subsequent Treasury Inspector
scandal. In March 2009, Madoff pleaded guilty to                         General for Tax Administration
                                                                        investigation in the aftermath of
several felony charges including securities fraud,                       the Bernard L. Madoff scandal.
investor advisor fraud, mail fraud, wire fraud, money
laundering, false statements, perjury, false filings with
the U.S. Securities and Exchange Commission, and theft
from an employee benefit plan. During the period
leading up to Madoff’s guilty plea, it was determined
that the IRS approved Madoff’s limited liability
corporation as a nonbank trustee for individual
retirement arrangements.
This review was performed at the Employee Plans Rulings and Agreements office in
Washington, D.C., during the period April 2011 through January 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions


4
    As of September 2011, there were 93 nonbank trustees on the IRS-approved nonbank trustee list.
                                                                                                      Page 2
                 Oversight of Nonbank Trustees Has Improved, but Resources
                      Expended on the Program Should Be Reevaluated



based on our audit objective. For one portion of our audit, the scope was limited to reviewing
three of four new nonbank trustee applications approved by the Employee Plans function during
Fiscal Year 2010 because the IRS was unable to locate one of the case files. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 3
                 Oversight of Nonbank Trustees Has Improved, but Resources
                      Expended on the Program Should Be Reevaluated




                                Results of Review

In the aftermath of the Madoff scandal, the Employee Plans function expanded its nonbank
trustee program by strengthening processes for approving nonbank trustee applications and
conducting more investigations to ensure nonbank trustees meet applicable tax regulations. The
IRS has received only a few new applications and most investigations determined that nonbank
trustees either were in full compliance with tax regulations or had minor violations that were
correctable. As a result of strengthening its processes, the Employee Plans function has better
ensured that entities were operating as nonbank trustees and that approved entities were meeting
the requirements outlined in the tax regulations.
While the actions taken by the Employee Plans function because of the Madoff scandal improved
the IRS’s oversight of nonbank trustees, we determined that nonbank trustee investigations focus
on compliance with tax regulations and do not independently determine whether the securities
exist. As a result, it is unlikely that nonbank trustee investigations would uncover a scheme,
such as the one perpetrated by Madoff.
Because investigations have not uncovered widespread noncompliance and would not likely
uncover a Madoff-like scheme, Employee Plans function management needs to evaluate how it
can best balance limited resources between overseeing nonbank trustees and examining
retirement plans. The Employee Plans function may not know whether it is using taxpayer funds
in the most productive manner if it does not reevaluate its use of limited resources.
In addition, we identified entities that either erroneously appeared on or were erroneously absent
from the IRS’s list of approved nonbank trustees. If the Employee Plans function does not focus
on ensuring the accuracy of the lists it publishes, the public cannot be assured which nonbank
trustees are approved to be custodians over tax-exempt retirement and savings accounts.

The Employee Plans Function Took Action to Better Ensure Nonbank
Trustees Are Complying With Tax Regulations
Based on the Madoff scandal, the Employee Plans function reviewed its nonbank trustee
program and determined it could do more to ensure that nonbank trustees are complying with
applicable tax regulations. The Employee Plans function instituted new processes, revised
procedures, conducted training, and increased the number of nonbank trustee investigations to
ensure nonbank trustees are complying with tax regulations.




                                                                                           Page 4
                     Oversight of Nonbank Trustees Has Improved, but Resources
                          Expended on the Program Should Be Reevaluated



       The Employee Plans function instituted new processes to determine an accurate
        number of entities that are operating as nonbank trustees. On May 14, 2007, the IRS
        published a list of 255 approved nonbank trustees. After the Madoff scandal unfolded,
        the Employee Plans function contacted by mail each nonbank trustee that it had on record
        to ensure that the entity was continuing to operate. In addition, the Employee Plans
        function instituted a new procedure on March 15, 2010, to establish contact with every
        approved nonbank trustee in some manner each fiscal year. As a result, the IRS revised
        the number of approved nonbank trustees to 93, as of September 1, 2011.
       The Employee Plans function revised existing procedures to better ensure tax
        regulations were met. Because of the Madoff
        investigation, the Employee Plans function
                                                         New standardized workpapers
        updated its procedures to ensure application and     and checksheets assist
        investigation processes were standardized.         Employee Plans officials in
        Specifically, the Employee Plans function began   ensuring they address all tax
        requiring the use of a new workpaper/checksheet    regulations when reviewing
        in Fiscal Year 2010 to better ensure tax          nonbank   trustee applications
                                                         and conducting investigations.
        regulations were met. We reviewed all three
        Fiscal Year 2010 closed applications that were
        available and determined that the standardized
        workpaper was being used. We also reviewed all
        closed Fiscal Year 2011 investigations and
        determined the standardized checksheet was used
        when appropriate.5 More importantly, we
        determined that the use of the standardized
        workpaper/checksheet enabled revenue agents to
        verify that all tax regulations were met before
        approving applications for new nonbank trustees
        and completing investigations of ongoing
        nonbank trustees.
       The Employee Plans function conducted training and increased the number of
        nonbank trustee investigations. In Fiscal Year 2008, the Employee Plans function did
        not complete any nonbank trustee investigations. As the Madoff scandal began to unfold,
        the IRS developed training for revenue agents on how to conduct these investigations and
        began conducting a large number of investigations as shown in Figure 2.


5
  The Employee Plans function closed 27 investigations in Fiscal Year 2011. However, in nine cases, information
obtained during the initial phase of the investigation indicated that the entity no longer wanted to operate as a
nonbank trustee. Another case was closed without action and postponed to another year. The standardized
checksheet is required only for those investigations of nonbank trustees that wish to retain their nonbank trustee
status.
                                                                                                            Page 5
                     Oversight of Nonbank Trustees Has Improved, but Resources
                          Expended on the Program Should Be Reevaluated



                 Figure 2: Number of Closed Nonbank Trustee Investigations
                              (Fiscal Years 2008 through 2011)

                           Fiscal Year                   Number of Closed Investigations
                               2008                                          06
                               2009                                         31
                               2010                                         21
                               2011                                         27
                                                     7
                  Source: Employee Plans function.

Overall, we concluded that the actions the Employee Plans function took because of the
Madoff scandal provided better assurance that nonbank trustees are meeting tax regulations.

The Employee Plans Function Is Investigating a High Percentage of
Nonbank Trustees
The Madoff investigation prompted the Employee Plans function to make several changes,
including implementing a policy to conduct at least 20 nonbank trustee investigations each year
and to investigate each nonbank trustee at least once every five years. Due to the concerns
regarding the integrity of the retirement system after the Madoff scandal, this is understandable.
However, the Employee Plans function may need to reconsider how it can best balance its
responsibility for overseeing nonbank trustees with other high priority workload. There are
fewer than 100 nonbank trustees and the Employee Plans function now has experience with its
expanded nonbank trustee program. It is unlikely that the scope of nonbank trustee
investigations would uncover a future scheme such as the one perpetrated by Madoff, and
investigations completed in Fiscal Year 2011 determined nonbank trustees either were in full
compliance with tax regulations or had minor violations that were correctable, indicating that
there is a low risk of widespread noncompliance with these entities.

The Employee Plans function is conducting a higher percentage of nonbank
trustee investigations compared to retirement plan examinations
While the policy of increasing the number of nonbank trustee investigations has provided
increased assurance that nonbank trustees are complying with tax regulations, it has come at a

6
  While no investigations were closed in Fiscal Year 2008, there were several ongoing investigations that had not
been completed.
7
  We did not validate these figures because we had no independent source against which to validate. However, we
did validate that at least 27 investigations were closed in Fiscal Year 2011 by obtaining all 27 closed case files. We
attempted to perform the same validation for Fiscal Year 2010, but the Employee Plans function could not locate all
the case files.
                                                                                                              Page 6
                 Oversight of Nonbank Trustees Has Improved, but Resources
                      Expended on the Program Should Be Reevaluated



cost to other high-priority work in the Employee Plans function. In Fiscal Year 2011, the
Employee Plans function spent 1,473 labor hours to conduct 27 nonbank trustee investigations
and incurred estimated travel costs of approximately $12,000 for site visits associated with the
investigations. The 27 investigations represent nearly 30 percent of the nonbank trustee
population. In contrast, the Employee Plans function examined approximately 1 percent of
all retirement plans.

It is unlikely that the scope of nonbank trustee investigations would uncover a
scheme, such as the one perpetrated by Madoff
In reacting to the Madoff scandal, Employee Plans function officials determined that the program
needed improvements. While these improvements were beneficial, based on discussions of the
scope of nonbank trustee investigations with Employee Plans function officials and review of
investigation procedures, we determined that it is unlikely that the Employee Plans function’s
investigation of Madoff’s nonbank trustee status would
have uncovered his scheme. Specifically, the
Employee Plans function’s nonbank trustee                    Nonbank trustee investigations
investigations focus on compliance with tax                   focus on compliance with tax
regulations and do not independently determine                regulations, and it is unlikely
                                                             that a scheme, such as the one
whether the securities exist. Instead, nonbank trustee       perpetrated by Madoff, would be
investigations check to ensure nonbank trustees have                   uncovered.
audited financial statements. In the Madoff case, his
company had audited financial statements. However,
the results of the audit were not reliable because the
Certified Public Accounting firm stated it had
conducted a legitimate audit, when in fact it had not.

The results of increased nonbank trustee
investigations reveal the nonbank trustee
sector is generally compliant with tax
regulations
While the Madoff scandal prompted the Employee
Plans function to increase its emphasis on the nonbank
trustee program because of potential vulnerabilities, the
results of increased investigations revealed that nonbank trustees were generally complying with
tax regulations. In Fiscal Year 2011, all completed investigations resulted in favorable closing
letters, noting only minor violations that were correctable.




                                                                                            Page 7
                   Oversight of Nonbank Trustees Has Improved, but Resources
                        Expended on the Program Should Be Reevaluated



In contrast, we have reported8 that retirement plan examinations result in uncovering
noncompliance more than 60 percent of the time, and some high-priority examinations result in
uncovering noncompliance 80 percent of the time.
Due to the unprecedented nature of the Madoff scheme and the fact that the Employee Plans
function had not conducted many nonbank trustee investigations at the time the scandal broke, it
is understandable that Employee Plans function management decided to increase the percentage
of nonbank trustee investigations. However, the Employee Plans function now has experience
with its revamped program and needs to determine whether adjustments are needed. Because the
same revenue agents that conduct nonbank trustee investigations also conduct retirement plan
examinations, any reduction to the number of nonbank trustee investigations could lead to a
greater number of retirement plan examinations. If the Employee Plans function does not
reevaluate its use of limited resources, it may not know whether it is using taxpayer funds in the
most productive manner.

Recommendation
Recommendation 1: The Employee Plans Director should reevaluate the balance of nonbank
trustee program and regular examination program work to ensure the workload is in line with the
Employee Plans function’s compliance priorities.
        Management’s Response: The IRS agreed with this recommendation and will
        evaluate the number of nonbank trustee investigations to determine the proper balance
        between such investigations and regular retirement plan examinations.

The Employee Plans Function Did Not Always Update the Approved
Nonbank Trustees Master List
The Employee Plans function maintains a master list of all approved nonbank trustees on the
IRS Internet website. The IRS posts periodic updates to the list on its website, as it adds or
removes entities, and publishes the list in an Internal Revenue Bulletin. Based on the
Madoff scandal, the IRS took action to update its master list of approved nonbank trustees and
removed more than 150 entities from the master list. However, we determined the updated list
was not accurate.




8
 Treasury Inspector General for Tax Administration, Ref. No. 2011-10-050, The Employee Plans Function Has
Improved the Process for Selecting Returns for Examination p. 5 (May 2011).
                                                                                                      Page 8
                  Oversight of Nonbank Trustees Has Improved, but Resources
                       Expended on the Program Should Be Reevaluated



Our review of Employee Plans function lists of closed          The Employee Plans function
nonbank trustee applications and investigations              improperly omitted and included
identified one entity that was issued a notice of approval       entities on the approved
in Fiscal Year 2007 but was not included on the              nonbank trustee list provided on
                                                                     the IRS Internet.
September 1, 2011, master list on the IRS website and
the September 12, 2011, Internal Revenue Bulletin. In
addition, we discovered three entities that were on the
IRS website and Internal Revenue Bulletin lists after the
entities notified the IRS that they were no longer
operating as nonbank trustees. The IRS should have
removed each of these from the list.
These errors occurred because Employee Plans
management did not ensure that the list was updated
based on reviews of new applications and investigations
of ongoing nonbank trustees. The list of approved
nonbank trustees is important to people who may want
to use a particular entity because it serves to demonstrate
that the entity has met the statutory requirements to operate as a nonbank trustee. If the
Employee Plans function does not focus on ensuring the accuracy of the lists it publishes, the
public cannot be certain which nonbank trustees have been approved to be custodians over
tax-exempt retirement and savings accounts.

Recommendation
Recommendation 2: The Employee Plans Director should ensure that the IRS’s published
lists of approved nonbank trustees are accurate based on the results of reviews of new
applications and investigations of ongoing nonbank trustees.
       Management’s Response: The IRS agreed with this recommendation and will
       continuously monitor the changes to the list of approved nonbank trustees throughout the
       year. The Employee Plans function will annually publish an announcement that contains
       the current list of approved nonbank trustees.




                                                                                           Page 9
                    Oversight of Nonbank Trustees Has Improved, but Resources
                         Expended on the Program Should Be Reevaluated



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS is ensuring nonbank trustees meet tax
regulation requirements and whether there are any opportunities for cost savings within this
program. To accomplish this objective, we:
I.      Obtained background information for the nonbank trustee program to determine the
        purpose of the program and the costs incurred for conducting investigations in
        Fiscal Year 2011.
II.     Determined whether Employee Plans function management established the necessary
        processes for evaluating new applications for approval as nonbank trustees to ensure that
        nonbank trustees meet the requirements of Section (§) 1.408-2(e)(2) through (5)1 of the
        tax regulations.
        A. Identified the Employee Plans function’s procedures for controlling and evaluating
           nonbank trustee applications.
        B. Reviewed nonbank trustee applications for three of four entities2 approved in
           Fiscal Year 2010 and determined whether the case files showed appropriate
           documentation that the applicant met the requirements of the tax regulations.
III.    Determined whether Employee Plans function management established the necessary
        investigative processes for ensuring that approved nonbank trustees continued to meet the
        requirements under § 1.408(e) of the tax regulations after their applications were
        approved.
        A. Identified the Employee Plans function’s procedures for investigating nonbank
           trustees for continued compliance with § 1.408(e) of the tax regulations.
        B. Evaluated the IRS’s methodology for investigating nonbank trustees.
        C. Reviewed all closed investigation case files from Fiscal Year 2011 and determined
           whether the case files showed appropriate documentation that nonbank trustees met
           the tax regulation requirements.
        D. Determined whether there were any opportunities for cost savings by reducing the
           number of investigations.

1
 § 1.408-2(e)2 through (e)(5)(viii)(F).
2
 Our scope was limited to reviewing three of four new nonbank trustee applications approved by the Employee
Plans function during Fiscal Year 2010 because the IRS was unable to locate one of the case files.
                                                                                                      Page 10
                 Oversight of Nonbank Trustees Has Improved, but Resources
                      Expended on the Program Should Be Reevaluated



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: nonbank trustee guidelines and
procedures, the Internal Revenue Manual 4.72.18 (Employee Plans Technical Guidance,
Nonbank Trustee Investigation Procedures), and the Nonbank Trustee Approval
Checklist/Workpaper Exam Investigations. We evaluated these controls by interviewing
management, reviewing documentation, and reviewing all available Fiscal Year 2010 nonbank
trustee application case files and all Fiscal Year 2011 nonbank trustee investigation case files to
ensure they contained appropriate documentation that the nonbank trustees met the tax regulation
requirements.




                                                                                           Page 11
                Oversight of Nonbank Trustees Has Improved, but Resources
                     Expended on the Program Should Be Reevaluated



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Andrew J. Burns, Senior Auditor
Carol A. Rowland, Auditor




                                                                                  Page 12
                Oversight of Nonbank Trustees Has Improved, but Resources
                     Expended on the Program Should Be Reevaluated



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 13
                 Oversight of Nonbank Trustees Has Improved, but Resources
                      Expended on the Program Should Be Reevaluated



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of information – Actual; three instances of entities incorrectly identified and
    one instance of an entity that was not included on the approved nonbank trustee master list on
    the IRS Internet and published in the Internal Revenue Bulletin (see page 8).

Methodology Used to Measure the Reported Benefit:
We reviewed Employee Plans function lists of closed nonbank trustee applications and
investigations and identified one nonbank trustee that was issued a notice of approval in
Fiscal Year 2007 but was not included on the September 1, 2011, IRS Internet list and the
September 12, 2011, Internal Revenue Bulletin. We also identified three entities on these lists
that had notified the IRS before it published the lists that they were no longer operating as
nonbank trustees. The IRS should have removed each of these entities from the lists.




                                                                                          Page 14
    Oversight of Nonbank Trustees Has Improved, but Resources
         Expended on the Program Should Be Reevaluated



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 15
Oversight of Nonbank Trustees Has Improved, but Resources
     Expended on the Program Should Be Reevaluated




                                                     Page 16
